 OFFICE OF INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND
     COMMUNITY SERVICE




      Pre-Audit Survey of the
    RSVP of Bergen County Inc.
      Grant No. 340A047-20

   OIG Audit Report Number 02-24
          June 14,2002




            Prepared by:

             CNCS OIG
       1201 New York Avenue
       Washington, DC 20525
                                             Pre-Audit Survey of the
                                           RSVP of Bergen County Inc.
                                             Grant No . 340A047-20

                                                   Table of Contents



OVERVIEW OF RSVP OF BERGEN COUNTY. INC.....................................................
                                                                                         2

BACKGROUND OF THE RSVP PROGRAM ..................................................................2

OBJECTIVES. SCOPE. AND METHODOLOGY .............................................................
                                                                                              3

RESULTS ...........................................................................................................................
                                                                                                                             -3
Office of Inspector General                                                              CORPORATION
1201 New York Avenue, NW
                                                                                         FOR NATIONAL
Washington, DC 20525




   June 14,2002




   Stanley Gorland, Corporation State Director
   Corporation for National and Community Service -New Jersey
   44 South Clinton Ave., Suite 3 12
   Trenton, NJ 08609

   We performed a pre-audit survey of the RSVP of Bergen County Inc., Grant No.
   340A047-20. The primary purpose of this survey was to provide a preliminary
   assessment of:

       The grant awards and terms;
       Fiscal or program issues raised by CNCS site visits.

   We were also to report on the recommended scope of additional audit procedures to be
   performed at the Grantee.

   Overview of the RSVP of Bergen County Inc.

   RSVP of Bergen County, Inc. is a non-profit organization, established under the laws of
   New Jersey, which, through the use of non-compensated senior citizens, provides various
   services to hospitals, schools, and other charitable groups.

   Background

   The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
   the National and Community Service Act of 1990, established the Corporation for
   National and Community Service.

   The Corporation, pursuant to the authority of the Act, awards grants and cooperative
   agreements to State Commissions, nonprofit entities and tribes and territories to assist in
   the creation of full and part time national and community service programs. Through
   these grantees, members perform service to meet the educational, human, environmental,
   and public safety needs throughout the nation, especially addressing those needs related to
   poverty. In return for their service, eligible members receive a stipend, accident
insurance, personal liability insurance and automobile insurance, free meals at host
institutions and physical examinations.

The mission of R.S.V.P. of Bergen County is to offer opportunities for persons 55 and
older to engage in community based service that addresses educational, public safety,
economic, environmental and other needs.

Objectives, Scope, and Methodology

The scope of this engagement was to provide an assessment of the grant and site visit
information systems and procedures in place at the State Office for administering its
Retired and Senior Volunteer Program and for monitoring fiscal activity. The primary
purpose of this pre-audit survey was to provide a preliminary assessment of:

   The amount, term and grant provisions;
   Results of CNCS State Office Site Visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

   reviewing the grant award, its provisions, the detailed grant proposal and budget;

    obtaining information from and discussions with CNCS State Offices.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not, perform an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.

Results

Based on the results of the limited procedures performed, we will proceed with an
incurred cost audit of grant project period January 1,2000 through December 3 1,2000
and January 1,2001 through December 3 1,2001. The decision to audit is based on the
following:

    The grant amount for 2001 is $86,630. This is the twentieth year the grantee has
    received an award.
   FSR's were submitted beyond the required due dates.

   Results of Site Visits identified violations of the terms and conditions of the Notice of
   Grant Award and the Code of Federal Regulations as follows:

   o Grantee did not fulfill the recordkeeping requirements as specified under Chapter
     4 of the Grants Management Handbook, and 45 CFR $2553.25 (g).

   o    Unallowable costs are being charged to the grant.

   o    Staff timesheets evidenced improper signatures and/or were unsigned.

   o    Volunteer timesheets and vouchers frequently failed to contain the required
        volunteer, station supervisor's and/or project official's signatures.

   o    The Grantee failed to demonstrate compliance with the provisions established
        under the Government Performance Results Act (GPRA).

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.




Terry Bathen
Acting Inspector General
Corporation for National and Community Service
Washington, D.C.




Copy to:

Wendy Zenker, Chief Operating Officer
Tess Scannell, Acting Director, CNCS National Senior Service Corps
Ma1 Coles, Area Manager, Atlantic Cluster
Rocco Gaudio, Director, Atlantic Service Center
